Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   EARLY ASSESSMENT OF
 AUDIT MEDICAID INTEGRITY
       CONTRACTORS




                    Daniel R. Levinson
                     Inspector General

                      March 2012
                     OEI-05-10-00210
EXECUTIVE SUMMARY: EARLY ASSESSMENT OF AUDIT MEDICAID
INTEGRITY CONTRACTORS
OEI-05-10-00210
WHY WE DID THIS STUDY
This study presents an early assessment of the efforts of Audit Medicaid Integrity
Contractors (Audit MIC) to identify overpayments in Medicaid. The combination of this
study and a companion study, Early Assessment of Review Medicaid Integrity
Contractors (Review MIC), offers insights into the overall effectiveness of Medicaid
integrity contractors and the Medicaid Integrity Program. Our objectives were: (1) to
determine the extent to which Audit MICs identified overpayments and (2) to describe
any issues or barriers that hindered the identification of overpayments.
HOW WE DID THIS STUDY
This study focused on Audit MICs’ results for audits assigned between January 1 and
June 30, 2010. We reviewed audit assignment data from the Centers for Medicare &
Medicaid Services’ (CMS) Database Audit Report Tracking System and resulting audit
reports. We interviewed staff from CMS, Audit MICs, and State Medicaid oversight
agencies.
WHAT WE FOUND
Eighty-one percent of audits either did not or are unlikely to identify overpayments.
Only 11 percent of assigned audits were completed with findings of $6.9 million in
overpayments, $6.2 million of which resulted from seven completed collaborative audits
involving Audit MICs, Review MICs, States, and CMS. The remaining audits had not
progressed enough to draw conclusions about likely outcomes.
Problems with the data used and analyses conducted by Review MICs and CMS to
identify audit targets hindered Audit MICs’ performance. However, collaborative audits
appear to have improved the selection of audit targets and the efficiency of the audit
process, leading to better results.
WHAT WE RECOMMEND
We recommend that CMS: (1) increase the use of collaborative audits and (2) improve
audit target selection in States that choose not to be involved in collaborative audits.
CMS concurred with both recommendations. CMS stated that it has redesigned its
approach to audit assignments, instructing Audit MICs to focus on collaborative projects.
With respect to our second recommendation, CMS stated that several initiatives are
underway to improve audit target selection. First, CMS noted that it is facilitating
improved communication among Audit MICs, Review MICs, and States. In addition,
CMS is internally evaluating options related to consolidating certain tasks and
requirements of Audit and Review MICs. Finally, CMS has efforts underway to improve
the quality of data that MICs can access for conducting data analysis.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings...................................................................................................... 11
           Eighty-one percent of Medicaid Integrity audits either did not
           or are unlikely to identify overpayments .......................................10
           Audit MICs’ performance was hindered because audit targets
           were poorly identified .................................................................... 11
           Collaborative audits generated 90 percent of the $6.9 million in
           overpayments that Audit MICs identified ......................................14
Conclusion and Recommendations ............................................................17
           Agency Comments .........................................................................19
Appendixes ................................................................................................20
           A: Audit Process ...........................................................................20
           B: Audit Results for Audits That Found Overpayments ...............21
           C: Agency Comments ...................................................................22
Acknowledgments......................................................................................25
             OBJECTIVES
             1. To determine the extent to which Audit Medicaid Integrity Contractors
                  (Audit MICs) identified overpayments.
             2. To describe any issues or barriers that hindered the identification of
                  overpayments.

             BACKGROUND
             Medicaid is jointly funded by States and the Federal Government to
             provide certain health-related services to categorically and medically
             needy populations. Medicaid spending in fiscal year (FY) 2010 totaled an
             estimated $404.9 billion, of which the Federal share was estimated at
             $271.4 billion.1 Medicaid spending is projected to increase as Medicaid
             enrollment increases, further straining already burdened State and Federal
             budgets. 2
             Fraud, waste, and abuse unnecessarily add to Medicaid program costs for
             States and the Federal Government. The Office of Inspector General
             (OIG), the Government Accountability Office, CMS, the Department of
             Justice, and State Medicaid oversight agencies have uncovered millions of
             dollars in overpayments and fraudulent billing for services covered under
             Medicaid. For example, CMS projected $22.5 billion in improper
             payments for FY 2010 through its Medicaid Payment Error Rate
             Measurement. 3


             The Medicaid Integrity Program
             The Deficit Reduction Act (DRA) of 2005 established the Medicaid
             Integrity Program as the first comprehensive effort by CMS to fight fraud,
             waste, and abuse within Medicaid. 4 The DRA requires CMS to fight
             fraud, waste, and abuse by contracting with entities to identify
             overpayments to providers and to educate providers, managed care
             organizations, and beneficiaries on program integrity issues. 5 CMS
             created the Medicaid Program Integrity Group to administer the Medicaid
             Integrity Program and oversee contracted entities.


             1 Centers for Medicare & Medicaid Services (CMS), 2010 Actuarial Report on the Financial Outlook for
             Medicaid. Accessed at http://www.cms.gov on June 15, 2011.
             2 Ibid.
             3 U.S. Department of Health and Human Services, FY 2010 Agency Financial Report. Accessed at

             http://www.hhs.gov on August 8, 2011.
             4 DRA of 2005, P.L. 109-171 § 6034, Social Security Act, § 1936, 42 U.S.C. § 1396u-6.
             5 DRA of 2005, P.L. 109-171 § 6034(a)(2), Social Security Act, § 1936, 42 U.S.C. § 1396u-6.




OEI-05-10-00210         Early Assessment of Audit Medicaid Integrity Contractors                            1
             CMS defined three types of MICs to perform the program integrity
             activities mandated in the DRA and to identify fraud, waste, and abuse:
             Review MICs, Audit MICs, and Education MICs. Review MICs review
             State Medicaid claims data and identify potential overpayments. Audit
             MICs audit specific providers and identify overpayments. Education
             MICs educate providers and beneficiaries on program integrity issues.
             Audit MICs
             CMS began awarding annual Audit MIC task orders in 2008. For
             FY 2010, three firms, Health Management Systems/IntegriGuard (HMS),
             Health Integrity, and Island Peer Review Organization, were awarded five
             task orders covering geographic areas that correspond to the 10 CMS
             regions across the country. 6 CMS spent approximately $30.5 million on
             Review and Audit MICs in FY 2010, $17.2 million of which went to Audit
             MICs.
             Identification of Overpayments
             Review MICs are contracted to identify, and Audit MICs are contracted to
             audit, providers who potentially received Medicaid overpayments.
             Review MICs conduct analysis to identify providers who potentially
             received overpayments. CMS selects certain providers as audit targets
             from the information provided by the Review MICs and assigns them to
             Audit MICs. Audit MICs then conduct audits to determine whether
             potential overpayments associated with the audit target (i.e., provider)
             were overpayments.
             Review MICs Identify Potential Overpayments. CMS makes monthly
             assignments to Review MICs to identify potential overpayments. For each
             data analysis assignment, CMS specifies the State, type of Medicaid
             claims data, and range of service dates that Review MICs are to review.
             CMS also specifies the algorithm (i.e., data analysis model) that Review
             MICs are to use to perform data analysis assignments. 7 CMS expects
             Review MICs to consider any relevant State or Federal policies, such as
             maximum quantity limits for drugs, in their analyses. Review MICs
             analyze claims submitted for reimbursement over a 5-year period (5-year
             audit window), which is the period most States require providers to keep
             records.


             6
               HMS was awarded task orders for Regions VI and VIII (South and Mountain West) in September 2008 and
             for Regions IX and X (West and Northwest) in May 2009. HMS’s contract for Regions VI and VIII was not
             renewed for FY 2012. Health Integrity was awarded task orders for Regions III, IV, V, and VII (East,
             Southeast, and Midwest) in July 2009. Island Peer Review Organization was awarded a task order for Regions I
             and II (Northeast) in July 2009.
             7
               Algorithms target specific types of potential overpayment, such as pharmacy billing errors, excessive amounts
             of service, or duplicate claims that appear to be for the same service. CMS and all Review MICs are
             responsible for developing algorithms.



OEI-05-10-00210         Early Assessment of Audit Medicaid Integrity Contractors                                 2
             In a recent study, OIG found that, from assignments made during a
             6-month period, Review MICs provided CMS with lists that included
             113,378 unique providers, ranked by the amount of their potential
             overpayments. 8
             That study also found that Review MICs’ ability to accurately complete
             assignments was hindered because data were missing or inaccurate.
             Review MICs use the Medicaid Statistical Information System (MSIS) to
             identify potential overpayments. The MSIS is a nationwide Medicaid
             eligibility and claims data source containing a subset of data elements
             from State data systems that States report quarterly to CMS. 9 OIG found
             that MSIS was missing provider identification information, adjustments
             that corrected payments, and service and beneficiary descriptions.
             Because these data were missing or inaccurate, Review MICs incorrectly
             identified potential overpayments. 10 To address these issues, CMS is
             making efforts to replace MSIS with an upgraded version, called
             Transformed MSIS (T-MSIS), which will include new data fields and
             should be updated more frequently than MSIS. 11
             Once Review MICs identify potential overpayments as part of their
             analyses, they send selected samples of those potential overpayments to
             the appropriate States for validation. States determine whether the
             sampled overpayments are valid using their State data systems. If States
             invalidate more than half of sampled overpayments, CMS requires Review
             MICs to reanalyze their data.
             CMS Selects Audit Targets. Using the lists of providers created by Review
             MICs, CMS conducts the analysis necessary to select audit targets. CMS
             conducts a quality assurance review before accepting Review MIC
             assignments as complete. CMS’s quality assurance review includes an
             analysis of State policies, a review of the algorithms used by the Review
             MICs, and a verification of Review MICs’ calculations of potential
             overpayments. After selecting audit targets from the lists of providers
             submitted in Review MIC assignments, CMS screens the audit targets
             with States or with other Federal entities to ensure that they are not



             8
                  OIG, Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012.
             9
               MSIS data are a specified subset of fields extracted from each State’s unique Medicaid Management
             Information System (MMIS). States use MMIS to process claims and monitor use of services. MSIS includes
             files of eligible Medicaid enrollees and four Medicaid claims files: (1) inpatient care, (2) long-term care, (3)
             prescription drugs, and (4) all other claims. CMS, Medicaid Statistical Information System (MSIS) File
             Specifications & Data Dictionary. Accessed at http://www.cms.gov on March 22, 2011.
             10
                   OIG, Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012.
             11
                CMS, Annual Report to Congress on the Medicaid Integrity Program for Fiscal Year 2010. Accessed at
             http://www.cms.gov on August 22, 2011.



OEI-05-10-00210            Early Assessment of Audit Medicaid Integrity Contractors                                3
                     already being audited or investigated. Chart 1 shows the process for
                     identifying audit targets.

Chart 1: Audit Target Selection Process
                                     CMS makes data analysis assignments to Review MICs


                                          Review MICs identify potential overpayments


                     Review MICs send samples of potential overpayments to appropriate States


                                        States review samples of potential overpayments


                 Review MICs make changes to analysis based on State comments when necessary


                     Review MICs send lists of providers and their potential overpayments to CMS


                                     CMS completes quality assurance on lists of providers


                                                    CMS selects audit targets


                                  CMS screens audit targets with States or other Federal entities


                                             CMS assigns audit targets to Audit MICs


                                                    Audit MICs conduct audits
Source: OIG analysis of interviews with CMS, November 2011.



                     For the 6-month review period in a recent study, CMS filtered the full lists
                     of 113,378 providers identified by Review MICs and selected 244 as audit
                     targets with $39.8 million in potential overpayments. 12
                     Audit MICs Identify Overpayments. After selecting the audit targets, CMS
                     assigns them to the Audit MICs. Audit MICs may request additional
                     information from the State, CMS, or Review MICs for their reviews. The
                     Audit MICs then draft audit plans for CMS approval, notify the providers,
                     and start the audits.
                     If Audit MICs detect potential fraud during an audit, they refer the cases to
                     OIG for investigation. The Audit MICs continue to conduct the audits, but
                     must receive clearance from OIG to report audit results to providers.



                     12
                          Ibid.



OEI-05-10-00210                      Early Assessment of Audit Medicaid Integrity Contractors       4
             When an audit identifies no recoverable overpayments, Audit MICs
             submit a Low-No-Findings Report to CMS. These audits either identify
             no overpayments or conclude that the amount of overpayments is too
             small to warrant recovery by CMS.
             When Audit MICs find overpayments, they submit Draft Audit Reports to
             CMS followed by Final Audit Reports. CMS conducts quality assurance
             reviews for Draft Audit Report findings and submits them to the
             appropriate State and provider for comment. After receiving comments
             from the State and provider on Draft Audit Report findings, Audit MICs
             make any necessary revisions to the reports and submit Final Audit
             Reports for CMS approval. See Appendix A for a flowchart of the Audit
             MIC audit process.
             Collaborative Audits
             When States are willing to participate, CMS may assign collaborative
             audits. Collaborative audit targets are selected with the involvement of
             Audit and Review MICs, States, and CMS. The States provide input on
             program areas that are vulnerable to overpayments and the State policies
             that apply to those program areas. MICs, CMS, and the States then jointly
             develop data analysis models to identify potential overpayments. Instead
             of using MSIS, collaborative audits identify potential overpayments using
             data available in each State’s MMIS. 13 All parties then determine which
             providers identified with potential overpayments should be audited. CMS
             screens the audit targets with State and other Federal entities to ensure
             they are not already being audited or investigated and then assigns targets
             to Audit MICs for auditing.
             Collection of Overpayments
             States are responsible for collecting overpayments from providers as
             determined in Final Audit Reports and returning the Federal share to CMS
             within 1 year. 14 Should a provider appeal audit findings, Audit MICs
             provide support to States during hearings and appeals.
             Related Work
             As previously mentioned, OIG conducted a companion study, Early
             Assessment of Review Medicaid Integrity Contractors, which focused on
             the early results of Review MICs. 15 That evaluation determined the extent
             to which Review MICs completed assignments, recommended audit leads,
             and identified potential fraud. It also described barriers Review MICs
             encountered.

             13
                States that participate in collaborative audits agree to share data, and in many cases States provide MICs with
             an extract from their MMIS database of the claims necessary for the collaborative audit.
             14
                  Social Security Act, § 1903(d)(2)(C), 42 U.S.C. § 1396b(d)(2)(C).
             15
                  OIG, Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012.



OEI-05-10-00210            Early Assessment of Audit Medicaid Integrity Contractors                                5
             In addition, a 2009 OIG report addressed the usefulness of MSIS data in
             detecting fraud, waste, and abuse. OIG found that MSIS did not capture
             all data elements that can assist in the detection of Medicaid fraud, waste,
             and abuse. Missing data elements include provider identifiers; procedure,
             product, and service descriptions; billing information; beneficiary
             identification information that indicates whether a beneficiary is dually
             eligible; 16 and Medicaid eligibility information. 17

             METHODOLOGY
             Scope
             This study focuses on Audit MICs’ program integrity activities for audits
             assigned between January 1 and June 30, 2010. Because the last contracts
             were awarded in July 2009, we requested data on Audit MIC audits
             assigned by CMS between January 1 and June 30, 2010. We selected this
             period because during this time, each Audit MIC had sufficient time to
             begin its activities; also, we wanted a 6-month assignment period upon
             which to base our findings. We collected data through June 1, 2011, on
             the audits assigned during this 6-month period because by that date, Audit
             MICs had had nearly 1 year to conduct their audits and report results. 18
             The audit targets in this report are not the same as the 244 audit targets
             identified in the report Early Assessment of Review Medicaid Integrity
             Contractors. 19 Instead, this report focuses on 370 different audit targets.
             Data Sources
             Data Collection. We collected data from CMS concerning Audit MICs’
             audit activities for targets assigned between January 1 and June 30, 2010.
             For purposes of this report, we refer to audits that originated with Review
             MICs or CMS analysis as regular audits and audits that originated through
             MICs, CMS, and State collaboration as collaborative audits.
             Specifically, we collected:
             •      Audit data from CMS’s Database Audit Report Tracking System
                    (DART). CMS maintains DART to track the assignment, progress,
                    and results of Audit MICs’ audits. DART contains information
                    necessary to track audit status and identifies overpayment amounts, as
                    well as comments on issues that arise during audits. DART is updated

             16
               Dually eligible beneficiaries are low-income seniors and severely disabled individuals who are covered by
             both Medicare and Medicaid.
             17
               OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse, OEI-04-07-00240, August 2009.
             Accessed at http://oig.hhs.gov on March 11, 2011.
             18
                  Audit MIC contracts allow for a 60-day transition period after contracts are awarded.
             19
                  OIG, Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012.



OEI-05-10-00210            Early Assessment of Audit Medicaid Integrity Contractors                             6
                  weekly by Audit MICs. The weekly update includes estimates of
                  overpayments as audits progress.
             •    Audit reports associated with the audits conducted during our review
                  period: Low-No-Findings Reports, Draft Audit Reports, and Final
                  Audit Reports. Audit reports include descriptions of the providers and
                  services being audited, the State policies that affect audit findings, the
                  specific claims that were audited and determinations regarding
                  whether they were paid for appropriately, and the amount of
                  overpayments identified by Audit MICs. Audit reports also included
                  barriers encountered while the Audit MICs were conducting the audits.
             Interviews. We conducted structured interviews with staff from each of
             the three Audit MICs and from CMS to identify audit processes that Audit
             MICs followed and barriers they encountered when conducting audits.
             These interviews also included questions about Audit MIC results, the
             process for discontinuing audits, identification of overpayments, and
             issues that caused audits to result in Low-No-Findings Reports.
             We also conducted interviews with seven selected State Medicaid
             oversight agencies to gather States’ perspectives on the effectiveness of
             MICs. These interviews included questions about Audit MIC results,
             communication between Audit MICs and States, and the impact that the
             Medicaid Integrity Program has on State Medicaid program integrity
             agencies.
             Data Analysis
             DART System. Using DART, we analyzed 388 audit assignments that
             Audit MICs received between January 1 and June 30, 2010. These
             assignments covered 27 States plus the District of Columbia. We analyzed
             the status of assignments to determine whether each assignment was
             completed, ongoing, discontinued, or placed on hold by CMS as of
             June 1, 2011. For the purposes of this report, we consider audits to be
             complete if they resulted in a Low-No-Findings Report, a Draft Audit
             Report, or a Final Audit Report or were discontinued by CMS.
             We also analyzed DART’s comments field to determine the reasons Audit
             MICs reported for why some assigned audits identified no overpayments.
             We created categories for the reasons Audit MICs provided based on
             common elements.
             Our findings are based on 370 assigned audits. We dropped 18 canceled
             audits from our analysis. CMS canceled these audits because the assigned
             Audit MIC’s contract was not renewed and the Audit MIC had not started
             the audits.




OEI-05-10-00210       Early Assessment of Audit Medicaid Integrity Contractors      7
             For the purposes of this report, we use the term “potential overpayments”
             to mean the amount of overpayments in claims initially assigned by CMS
             to Audit MICs for audit and the term “overpayments” to mean the amount
             of overpayments discovered by Audit MICs as a result of their audits. We
             also refer to all audits that did not identify recoverable overpayments,
             including all audits that resulted in Low-No-Findings Reports, as having
             no overpayments.
             We determined the amount of potential overpayments using the
             “Overpayments in Data Engine” field. This is the value of claims Review
             MICs identified as potential overpayments that was then passed on to
             Audit MICs.
             We determined the amount of overpayments primarily using the
             “Overpayments in Initial DAR (Draft Audit Report)” field.
             “Overpayments in Initial DAR” is a uniform point in the audit process
             when Audit MICs have completed their audits and determined whether
             payments were overpayments. In a few cases where there was not an
             entry in the “Overpayments in Initial DAR” field, we used the “Estimated
             Overpayments” field. The “Estimated Overpayments” field is the most
             recent amount of overpayments identified and may reflect adjustments to
             the overpayment amount after States and providers comment on the initial
             audit findings.
             To determine which ongoing audits were unlikely to identify
             overpayments, we compared ongoing audits’ targets with completed
             audits’ targets. Specifically, we compared the methods used to select audit
             targets for ongoing audits with completed audits that primarily identified
             no overpayments. When the methods were the same, we determined it
             was likely that the ongoing audits would also identify no overpayments.
             In most cases, the methods used to select the audit targets for the ongoing
             audits had been used for multiple audits that identified no overpayments.
             In addition to comparing audit target selection methods, we determined
             that those audits that did not have any overpayments in the “Estimated
             Overpayments” field in DART were also unlikely to identify
             overpayments.
             Audit Reports. When completed audits resulted in Low-No-Findings
             Reports, Draft Audit Reports, or Final Audit Reports, we analyzed the
             reports to confirm and give context to information gathered from DART.
             We also reviewed these reports to determine what, if any, barriers or issues
             Audit MICs encountered during the audits. We created categories of
             barriers, when applicable, based on common elements.




OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors    8
             Interviews. We analyzed the results of structured interviews with staff
             from each Audit MIC and from CMS to determine whether any
             commonalities existed in the barriers they stated Audit MICs confront
             when auditing.
             We analyzed the results of structured interviews with State Medicaid
             oversight agencies to identify any State concerns with the Medicaid
             Integrity Program’s audits. We also analyzed these structured interviews
             to determine whether selected States felt the audits assigned to Audit
             MICs were appropriate and effective for identifying overpayments.
             Data Limitations
             Because this study did not assess the results of Audit MIC activities for
             audits assigned outside the 6-month period between January 1 and
             June 30, 2010, we cannot describe the collection of overpayments or the
             results of Audit MIC activities during the entirety of their contracts with
             CMS. However, Audit MICs were assigned 370 audits during our
             6-month review period, or 62 audits per month, from which we can draw
             conclusions about the results of Audit MICs’ program integrity activities.
             Because most audits had not been issued as Final Audit Reports by the
             time we completed data collection, the dollars we report as identified
             overpayments are from the Draft Audit Report stage. Downward
             adjustments may occur between the Draft and Final Audit Reports as
             States and providers respond to the audits with supporting documentation
             that shows potential overpayment was appropriate. Therefore, the actual
             overpayment amounts reported in Final Audit Reports may be lower than
             the overpayment amounts in this report.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors     9
                        FINDINGS
                        Eighty-one percent of Medicaid Integrity audits either
                        did not or are unlikely to identify overpayments
                        Between January and June 2010, CMS assigned Audit MICs 370 audits
                        with $80 million in potential overpayments. Only 11 percent identified
                        overpayments, totaling $6.9 million. Eighty-one percent of the audits
                        were either completed with findings of no overpayments (42 percent) or
                        remained ongoing as of June 2011 and are unlikely to identify
                        overpayments (39 percent). The remaining audits were ongoing as of
                        June 2011; however, there was not enough information about these audits
                        to draw conclusions about their likely outcomes. See Chart 2 for a
                        breakdown of the status of audits as of June 2011.


             Chart 2:                               Identified
Status of 370 Audits,                             overpayments
                                          Ongoing;    11%*
           June 2011
                                        potential for
                                       overpayments
                                            7%
                                                                                         No overpayments
                                                                                               42%




                                 Ongoing; unlikely
                                      to find
                                  overpayments
                                       39%



                        Source: OIG analysis of Audit MIC assignments, July 2011.
                        *Percentages do not add up to 100 percent because of rounding.


                        Forty-two percent of audits identified no overpayments
                        Forty-two percent of audits either were completed with findings of no
                        overpayments or were discontinued by CMS. Audit MICs found no
                        overpayments for 85 audits. An additional 72 audits had no overpayments
                        because they were discontinued by CMS after the Audit MICs determined
                        that finding overpayments was unlikely, making further audit activities
                        unnecessary.




       OEI-05-10-00210             Early Assessment of Audit Medicaid Integrity Contractors          10
             Thirty-nine percent of Medicaid Integrity audits are ongoing
             and are unlikely to identify overpayments
             Of the 370 audits in our review period, 144 are ongoing and are unlikely
             to result in findings of overpayments. On average, these 144 audits have
             been ongoing for over 1 year; evidence from other audits and from
             progress updates in CMS’s DART suggests that they will not identify
             overpayments.
             Specifically, 109 of the 144 ongoing audits are unlikely to identify
             overpayments because the methods used to select the audit targets have
             already proven unsuccessful. The 109 audit targets were selected using
             the same algorithms in the same States as other completed audits that
             primarily had findings of no overpayments. In fact, 1 Audit MIC
             confirmed that the review process for 23 of the 109 audits is complete and
             that staff found no overpayments for any audit; the Audit MIC was in the
             process of drafting Low-No-Findings Reports. Additionally, CMS’s
             DART, which tracks weekly progress updates, showed no estimated
             overpayments in weekly updates for another 48 of these 109 audits as of
             June 2011.
             Preliminary evidence for the remaining 35 of the 144 ongoing audits
             suggests that these audits are also unlikely to result in findings of
             overpayments. As of June 2011, DART showed no estimated
             overpayments for these 35 audits in the weekly updates. Additionally, the
             same Audit MIC as above confirmed that the review process for 2 of these
             35 audits is complete and that staff found no overpayments for either
             audit. The Audit MIC was in the process of drafting Low-No-Findings
             Reports.
             Eleven percent of audits identified $6.9 million in
             overpayments
             Audit MICs completed 42 audits with findings of overpayments totaling
             $6.9 million. Audit MICs identified $6.2 million of the $6.9 million in
             overpayments through seven completed collaborative audits. The
             remaining $700,000 in overpayments was identified through 35 regular
             audits. See Appendix B for a description of these audits.



             Audit MICs’ performance was hindered because audit
             targets were poorly identified
             Audit MICs’ ability to find overpayments were hindered because the audit
             targets they were provided were poorly identified. Based on their
             contracts with CMS, Audit MICs are responsible for identifying
             overpayments among audit targets provided to them by CMS. They are

OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors          11
             not responsible for selecting the audit targets. CMS selects the audit
             targets from the lists of providers and their potential overpayments
             supplied by the Review MICs.
             For 111 of the 157 audits with no overpayments, Audit MICs discovered
             they had inappropriate audit targets. These audit targets were
             misidentified because of problems with the MSIS claims data used to
             identify potential overpayments or the interpretation of the claims data in
             light of each State’s specific Medicaid program policies. See Table 1 for a
             breakdown of the reasons 157 audits were completed with findings of no
             overpayments.
             Table 1: Reasons Audit MICs Reported That 157 Audits Had Findings of No
             Overpayments
                  Reason                                                      Number of Audits   Percentage

                  There was an MSIS data issue                                             57          36%
                  Program policy was misinterpreted                                        54          34%
                  Payment was appropriate (no error)                                       30          19%
                  Review MIC analysis was missing                                          14           9%
                  No reason given                                                           2           1%
                   Total                                                                  157         99%*
             Source: OIG analysis of DART and Low-No-Findings Reports, August 2011.
             *Percentages do not add up to 100 percent because of rounding.

             Audit targets were misidentified because of data problems
             Audit MICs discovered that 36 percent of the audit targets that resulted in
             audits with no overpayments were mistakenly selected based on
             conclusions drawn from erroneous MSIS data. For some of these
             misidentified audit targets, MSIS claims data incorrectly identified the
             place of service. These audit targets were identified through an algorithm
             intended to identify overpayments for inpatient claims. While MSIS data
             identified the claims for these audit targets as inpatient claims, Audit MIC
             staff reported that the claims were in fact outpatient claims.
             Other audit targets had claims that were mistakenly identified as
             overpayments because the services appeared to occur after beneficiaries
             died, but the beneficiaries’ dates of death were incorrect.
             Additionally, 13 audit targets were misidentified because MSIS data for
             their claims were outdated. These claims were mistakenly identified as
             overpayments because MSIS showed overpayments, but further research
             showed that the problems had already been corrected by the States and the
             changes were not reflected in MSIS.




OEI-05-10-00210            Early Assessment of Audit Medicaid Integrity Contractors                     12
             Audit targets were misidentified because State program
             policies were applied incorrectly
             Audit MICs discovered that 34 percent of audit targets with no
             overpayments were misidentified because Review MICs applied State
             Medicaid program policies incorrectly. Forty-four audit targets were
             selected because of misidentified duplicate payments for services provided
             to dually eligible beneficiaries (i.e., beneficiaries enrolled in both
             Medicaid and Medicare). In these cases, Medicaid made two payments
             for each beneficiary’s hospital stay, but both payments were appropriate.
             One payment covered all inpatient services and the second payment
             covered the coinsurance for ancillary services billed to Medicare during
             the hospital stay. The State Medicaid agency is required to pay for the
             Medicare coinsurance for dually eligible beneficiaries. 20
             Audit MICs discovered another 10 audit targets with claims that were
             inappropriately identified as overpayments because of a misapplication of
             policy. These audit targets had claims that violated the Correct Coding
             Initiative, a national policy on medical coding edits designed to prevent
             improper billing. However, the States these audit targets were located in
             had not adopted the Correct Coding Initiative and the claims were
             allowable under those States’ Medicaid policies. 21
             In addition, five of the seven State Medicaid oversight agencies
             interviewed stated that the audit targets assigned by CMS were often
             inappropriate. Staff from one State Medicaid oversight agency stated that
             a Review MIC mistakenly identified drug claims as potential
             overpayments because it believed the drug was not covered when, in fact,
             the drug was covered in that State. Staff from another State Medicaid
             oversight agency commented that Review MICs and CMS did not
             correctly apply the State’s payment methodologies when analyzing State
             Medicaid claims.
             Identifying improper payments in Medicaid requires indepth knowledge of
             each State’s Medicaid program policies and data. Medicaid is
             administered by States and each State’s Medicaid program is unique.
             States also process and store their own claims data, which contain
             variables unique to each State. 22

             20
                Social Security Act, §§ 1902(a)(10)(E) and 1905(p), 42 U.S.C. §§ 1396a(a)(10)(E) and 1396d(p). States may
             differ in the policies that determine how Medicare and Medicaid claims for dually eligible beneficiaries are
             submitted and recorded.
             21
                Social Security Act, § 1903(r)(1)(B)(iv), 42 U.S.C. 1396b(r)(1)(B)(iv). The Patient Protection and
             Affordable Care Act made the National Correct Coding Initiative (NCCI) mandatory in all States for Medicaid
             claims filed on or after October 1, 2010. However, the NCCI is not legally required for audit assignments made
             during our review because the claims associated with these audits were filed before October 1, 2010.
             22
                  Ibid.


OEI-05-10-00210           Early Assessment of Audit Medicaid Integrity Contractors                                     13
             Audit MICs reported that problematic audit targets caused
             them to duplicate efforts
             Audit MICs reported spending significant preaudit time evaluating
             algorithms, reanalyzing MSIS data, and ensuring the accurate application
             of State policies during audit target selection. According to CMS’s DART,
             an average of 3 months elapsed between the date CMS assigned audits to
             Audit MICs and the date when Audit MICs began the audits. Audit MICs
             stated that they needed to duplicate previous work during this time
             because of the problems they discovered with many of the audit targets.
             Additionally, Audit MICs stated that they felt compelled to duplicate
             Review MIC analyses because they could not easily communicate with
             Review MICs or States. At the time of our review, all communications
             between Audit MICs and Review MICs were channeled through CMS.
             When an Audit MIC had questions for a Review MIC concerning the data
             analysis associated with audits it was conducting, the Audit MIC first had
             to send its questions to CMS. CMS would then either contact the Review
             MIC or schedule a meeting between the Audit MIC and Review MIC.
             Questions for States about policies and procedures were similarly directed
             first to CMS before the Audit MIC was allowed to contact the State.
             More recently, CMS began to allow more direct communication among
             Audit MICs, Review MICs, and States. In late 2010, CMS began
             facilitating monthly conference calls between Audit and Review MICs to
             address issues arising during audits that relate to Review MIC data
             analysis. In addition, CMS is allowing direct communication between
             Audit MICs and States. Audit MICs notify CMS of communication with
             the State only when the issue significantly affects the audit.
             Audit MICs also reported rescreening audit targets that were previously
             screened by CMS with States and other Federal agencies. Audit MICs
             stated that they started this practice after CMS assigned some audit targets
             during our review that were already under State review. In one instance,
             by the time CMS assigned the audit target to the Audit MIC, the State had
             already conducted an audit and collected the overpayments.


             Collaborative audits generated 90 percent of the
             $6.9 million in overpayments that Audit MICs
             identified
             Audit MICs, Review MICs, States, and CMS worked collaboratively on
             eight audits, seven of which identified overpayments, between
             January and June 2010. Although only 7 of the 42 audits that identified

OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors          14
                         overpayments were collaborative audits, they accounted for $6.2 million
                         of the identified overpayments, compared with only $700,000 for the
                         35 regular audits. Eighty-eight percent of completed collaborative audits
                         had findings of overpayments compared with only 18 percent of
                         completed regular audits.
                         Audit MICs also found that collaborative audits resulted in a higher
                         proportion of overpayments to potential overpayments than regular audits.
                         Specifically, 52 percent of the potential overpayments identified during the
                         collaborative audit process were found to be overpayments. By
                         comparison, Audit MICs found that only 16 percent of potential
                         overpayments identified by Review MICs and CMS for regular audits
                         were, in fact, overpayments. See Chart 3 for a breakdown of potential
                         overpayments versus overpayments for 7 completed collaborative audits
                         compared to the 35 completed regular audits with findings of
                         overpayments.



              Chart 3:       $14,000,000
             Potential
Overpayments Versus          $12,000,000
   Overpayments for
 Audits With Findings        $10,000,000
    of Overpayments
                               $8,000,000
                                                                                                      Potential overpayments
                               $6,000,000
                                                                                                      Identified overpayments
                               $4,000,000

                               $2,000,000
                                                             7                   35
                                          $0
                                                   Collaborative              Regular

                         Source: OIG analysis of audits completed with findings of overpayments, June 2011.



                         Collaboration may have improved the selection of audit targets
                         and efficiency of the audit process, leading to better results
                         Collaboration among Audit MICs, Review MICs, States, and CMS may
                         have improved audit target selection by making more accurate data
                         available, improving access to State data systems and knowledge of State-
                         specific Medicaid policies, and decreasing duplication of effort. Audit
                         MICs completed collaborative audits an average of 2.5 months faster than
                         regular audits.
                         Collaboration with State Medicaid agency staff provided Audit MICs with
                         access to States’ MMIS for claims analysis rather than using the MSIS


        OEI-05-10-00210              Early Assessment of Audit Medicaid Integrity Contractors                                   15
             data used to conduct claims analysis for regular audits. MMIS data
             include adjustments and more up-to-date data than MSIS, thus eliminating
             some of the data problems that occur when using MSIS.
             Collaboration with State Medicaid agency staff also gave Audit and
             Review MICs a chance to gain familiarity with State-specific Medicaid
             policies and regulations, leading to improved audit target selection. As
             staff from one Audit MIC explained, working closely with a State helps
             Audit MICs identify services and providers that are more likely to abuse
             the Medicaid program in that particular State. Another Audit MIC’s staff
             commented that collaboration with States prior to the start of audit
             activities resulted in fewer problematic audit targets, yielding higher
             overpayment findings.
             Finally, collaboration may eliminate the duplication of effort that occurs
             during regular audits, making the entire audit process more efficient.
             While Audit MICs often felt compelled to duplicate Review MIC and
             CMS analysis for regular audit targets, collaborative audits involved Audit
             MICs in original data analysis and target selection. In fact, CMS’s DART
             indicated that an average of 1 month elapsed between the date CMS
             assigned collaborative audits to Audit MICs and the date when Audit
             MICs began the audits. For regular audits, an average of 3 months elapsed
             before Audit MICs began the audits. Furthermore, collaborative audit
             targets were screened only once, immediately preceding the start of the
             audit. This reduces the burden on States of multiple screenings of possible
             audit targets and makes it unlikely that the Audit MIC and the State would
             conduct simultaneous audits.




OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors        16
             CONCLUSION AND RECOMMENDATIONS
             Few of the audits assigned to Audit MICs from January through June 2010
             identified overpayments. Of the 370 audits assigned to Audit MICs,
             81 percent either did not identify overpayments or are unlikely to identify
             overpayments. Only 11 percent of assigned audits were completed with
             findings of $6.9 million in overpayments, $6.2 million of which resulted
             from seven completed collaborative audits. Additionally, this recoverable
             overpayment total may be lowered as audit reports are finalized.
             While mixed audit results were expected, the extensive analysis used to
             identify audit targets should have yielded better overall results. The
             majority of audit targets were identified through Review MIC and CMS
             analysis, were selected by CMS as audit targets, and were screened by
             CMS with the appropriate States and Federal entities. Yet most completed
             audits from our review period had findings of no overpayments.
             Problems with the data and with the analyses conducted by Review MICs
             and CMS to identify audit targets hindered Audit MICs’ performance.
             Poor audit target selection also led to duplication of effort as Audit MICs
             chose to verify the accuracy of the analyses and rescreen selected audit
             targets. However, collaboration among Audit MICs, Review MICs, States,
             and CMS during collaborative audits appears to have improved the
             selection of audit targets and the efficiency of the audit process, leading to
             better results.
             Because Audit MICs are only one part of the process to identify Medicaid
             overpayments, the results of this study reflect the efforts of Review and
             Audit MICs, as well as CMS. The quality of audits conducted by Audit
             MICs depends on the quality of the audit targets selected by CMS, and
             audit target quality depends on the quality of data analyses conducted by
             Review MICs. Thus, when combined with the companion study, Early
             Assessment of Review Medicaid Integrity Contractors, this study provides
             recommendations to improve the effectiveness of the entire process for
             identifying Medicaid overpayments. 23
             CMS Should Increase the Use of Collaborative Audits
             We recommend that CMS encourage collaborative audits where
             appropriate. We recognize that not all States will be interested in or
             capable of partnering with CMS in this way. However, increasing the
             number of collaborative audits assigned to Audit MICs will capitalize on
             the benefits of the collaborative audit model, with potential to identify
             greater overpayments more efficiently. Collaborative audits use more


             23
                  OIG, Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012.


OEI-05-10-00210           Early Assessment of Audit Medicaid Integrity Contractors                                  17
             complete, updated State MMIS data and knowledge of State-specific
             Medicaid policies to more accurately identify potential overpayments and
             select audit targets. Additionally, increased collaboration among Audit
             and Review MICs, CMS, and States would eliminate the duplication of
             efforts and support recent requirements to coordinate auditing efforts. 24
             CMS Should Improve Audit Target Selection in States That
             Choose Not To Be Involved in Collaborative Audits
             Given that not all States will want to partner with CMS using the
             collaborative model approach, we recommend that CMS work to improve
             the current method of identifying and selecting audit targets. One reason
             audit targets were misidentified was misapplication of State Medicaid
             policy. Therefore, CMS should work to improve the ability of Review
             MICs to properly analyze Medicaid data in light of State-specific policies.
             One way to do this would be to create better communication among Audit
             MICs, Review MICs, and States. Audit MICs discovered numerous audit
             targets that were misidentified because of misapplication of State policy.
             Review MICs could benefit from this better communication as they strive
             to build more indepth knowledge of each State’s Medicaid program and
             policies.
             Although CMS has made some strides to improve the communication
             between Audit and Review MICs, we believe even more could be done.
             For example, interaction between Audit and Review MICs could be
             improved by combining their responsibilities and tasks under one
             Medicaid integrity contractor. This would eliminate duplication of effort
             and reduce the burden that States face in interacting with multiple
             contractors throughout the audit process.
             To address errors in audit targeting caused by data problems, CMS needs
             to improve the quality of data MICs can access to conduct data analysis.
             We made this recommendation in the companion report, Early Assessment
             of Review Medicaid Integrity Contractors. 25 We recommend that CMS
             devote the resources necessary to implement T-MSIS to make it available
             to the Review and Audit MICs, especially in States that choose not to
             participate in collaborative audits. One of the reasons collaborative audits
             outperformed regular audits is that they had access to better data.
             Collaboration with the State Medicaid agency staff provided access to the
             States’ MMIS for claims analysis rather than MSIS. MMIS is more
             complete and is updated more often than MSIS.


             24
                Patient Protection and Affordable Care Act, P.L. 111-148 § 6411(a)(1)(C), amending Social Security Act
             § 1902(a)(42), 42 U.S.C. § 1932a(a)(42).
             25
                  OIG, Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012.


OEI-05-10-00210           Early Assessment of Audit Medicaid Integrity Contractors                                       18
             AGENCY COMMENTS
             CMS concurred with both recommendations. CMS stated that it has
             redesigned its approach to audit assignments, instructing Audit MICs to
             focus on collaborative projects. While CMS assigned only 8 collaborative
             audits during the first 6 months of 2010, it stated it has assigned
             83 collaborative audits in the 18 months since our review. These
             collaborative audits allow Audit MICs to work with States and obtain
             up-to-date claims data from each State’s MMIS.
             With respect to our second recommendation, to improve audit target
             selection in States that choose not to be involved in collaborative audits,
             CMS stated that it has several initiatives underway to improve audit target
             selection. First, CMS is working to clarify MICs’ understanding of State
             Medicaid programs and policies by arranging for direct communication
             between Audit MICs and States. In addition, CMS is working to improve
             communication between Audit and Review MICs while internally
             evaluating options for consolidating certain MIC tasks and requirements.
             Finally, CMS reiterated that several initiatives are underway to improve
             the quality of data that MICs can access for conducting data analysis.
             CMS continues to work toward improving the data available in MSIS
             through a 10-State pilot project testing the expanded T-MSIS data set. In
             the interim, CMS is working directly with States to obtain MMIS data
             extracts for specific provider types and is leveraging data from the
             Medicare-Medicaid Data Match program.
             We made revisions to the report based on CMS’s technical comments.
             For the full text of CMS’s comments, see Appendix C.




OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors         19
                APPENDIX A
                Audit Process 26


                                          START: Centers for
                                          Medicare & Medicaid
                                         Services (CMS) assigns
                                        audit of one provider and
                                         potential overpayments
                                            for that provider




                                           Audit MICs start audit
                                                 activities



         END: Audit                                                                               Full audit (no sampling)
    discontinued by CMS
                                             Probe sample audit




                                                                                                        Submit preliminary findings
                                                                                                             report to CMS
                            Submit probe findings
                                                                            Full audit
                               report to CMS




        END: Submit                      Submit Draft Audit Report                        END: Submit
           Low-No-                               to CMS                                  Low-No-Findings
       Findings Report                                                                    Report to CMS
           to CMS




                                              END: Submit
                                               Final Audit
                                              Report to CMS
                                               and States




                Source: Office of Inspector General analysis of interviews with CMS, June 2011.




                26
                  Audit Medicaid Integrity Contractors (MIC) either conduct a probe audit or immediately audit the entire
                universe of questionable claims associated with the assigned audit target, as directed by CMS.


OEI-05-10-00210             Early Assessment of Audit Medicaid Integrity Contractors                                         20
                     APPENDIX B
                     Audit Results for Audits That Found Overpayments
Audit                                                                                          Potential
                    Provider Type                                     Issue                                   Overpayments
Number                                                                                    Overpayments
1                           Hospital        Inappropriate Service Setting                       $29,649             $1,921
2                           Hospital        Inappropriate Service Setting                           $31,644         $2,507
3                           Hospital        Inappropriate Service Setting                           $41,845         $2,626
4                           Hospital        Inappropriate Service Setting                          $200,437         $2,733
5                           Hospital        Inappropriate Service Setting                           $10,173         $2,908
6                Behavioral Health                                Upcoding                          $15,792         $3,825
7                           Hospital        Inappropriate Service Setting                            $9,796         $3,983
8                           Hospital        Inappropriate Service Setting                           $16,297         $5,561
9                           Hospital        Inappropriate Service Setting                      $2,948,137           $6,012
10                     Home Health          Inappropriate Service Setting                            $7,000         $7,000
11             Mental Health Clinic                               Upcoding                          $10,375         $8,000
12                          Hospital        Inappropriate Service Setting                           $11,587         $9,016
13                          Hospital        Inappropriate Service Setting                           $26,689         $9,699
14             Mental Health Clinic                               Upcoding                           $9,343         $9,800
15                          Hospital        Inappropriate Service Setting                           $20,807        $10,435
16             Mental Health Clinic                               Upcoding                          $12,539        $10,909
17                        Pharmacy                         Pharmacy Error                           $23,304        $11,304
18                          Hospital        Inappropriate Service Setting                           $52,977        $11,517
19                          Hospital        Inappropriate Service Setting                           $72,767        $14,268
20                          Hospital        Inappropriate Service Setting                            $8,581        $16,764
21                          Hospital        Inappropriate Service Setting                          $212,296        $21,027
22                          Hospital        Inappropriate Service Setting                           $47,642        $23,450
23                          Hospital                      Duplicate Billings                        $98,223        $25,165
24                        Pharmacy                               Early Refill                       $36,522        $27,450
25                        Pharmacy                               Early Refill                       $80,170        $27,583
26                        Pharmacy                               Early Refill                       $31,831        $30,470
27                          Hospital        Inappropriate Service Setting                           $56,818        $30,472
28                        Pharmacy                               Early Refill                       $80,997        $32,406
29                        Pharmacy                               Early Refill                       $94,202        $33,747
30                        Pharmacy                         Pharmacy Error                           $46,759        $34,374
31                          Hospital        Inappropriate Service Setting                           $14,064        $37,041
32                        Pharmacy                         Pharmacy Error                            $3,686        $40,932
33                          Hospital        Inappropriate Service Setting                           $45,811        $45,811
34                          Hospital        Inappropriate Service Setting                           $40,658        $49,622
35                          Hospital                      Duplicate Billings                       $104,114        $90,466
36                 Long-Term Care                        Hospice Services                      $1,600,000         $218,758
37                        Pharmacy                     Pharmacy Services                           $240,333       $240,333
38                          Hospice                      Hospice Services                          $821,842       $284,645
39                          Hospice                      Hospice Services                          $723,678       $487,430
40                          Hospice                      Hospice Services                      $2,038,482         $575,808
41                          Hospital                     Hospice Services                      $1,420,613        $1,367,218
42                 Long-Term Care                        Hospice Services                      $5,095,317        $3,045,748
Source: Office of Inspector General analysis of the Database Audit Report Tracking System, 2011.




OEI-05-10-00210                  Early Assessment of Audit Medicaid Integrity Contractors                                21
                       APPENDIXC
                       Agency Comments




   (~~.~              DEPARTMENT OF BRALTI< & HUMAN SERVICES                                     Centers for Medicare & MedICaid Services


    "1.»#p ~
      <••.". (;                                                                                  Administrator
                                                                                                 Washington . DC 2020t




                  DATE: 	       FEB 0 8 ~012
                  TO: 	          Daniel R. Levinson
                                 Inspector_General
                                                      /S/
                  FROM: 	        Maiilynfla'otenner
                                 Acting Admillistrator

                  SUBJECT: 	 Oftice of Inspector General (OlG) Draft Report: "Early Assessment of Audit
                             Medicaid Integrity Contractors" (OEI-05-10-0021 0)


                  The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to comment
                  on this subject OIG draft report. The objectives of the report were: I) to determine the extent to
                  which Audit Medicaid Integrity Contractors (MIC) identified overpayments and 2) to describe
                  any issues or barriers that hindered the identification of overpayments. OIG's recommendations
                  offer important strategies for improving the effectiveness of contractors' efforts to identify fraud,
                  waste, and abuse in the Medicaid program that are consistent with our own assessments.

                  In fiscal year 2010, CMS initiated a redesign of the Medicaid Integrity Program' 5 National Audit
                  Program. Through this redesign, CMS is engaging Audit and Review MICs and the States more
                  extensively to improve MIC audit targets as well as improve the quality of data accessible to
                  MICs. So far, these redesign efforts have been successful. For example, whereas OIG reported
                  eight collaborative audits assigned during its study period from January I to June 30, 2010, CMS
                  has since assigned 83 collaborative audits to Audit MICs in 10 States during the subsequent 18­
                  month period. Currently, CMS is engaged in discussions with 13 additional States to develop
                  new collaborative audit projects.

                  The collaborative audit efforts also involved progress in improving the quality of data accessible
                  to MICs. The collaborative audits include up-to-date claims data from each State's respective
                  Medicaid Management Information System (MMlS). In addition to working directly with States
                  to obtain MMIS data for collaborative audits, CMS is leveraging data from the Medicare­
                  Medicaid Data Match program, as well as obtaining extracts ofMMIS data from several States
                  for projects focused on pharmacy and other specific provider types. In addition, CMS has taken
                  steps to improve communication among Audit MICs, Review MICs, and State Medicaid
                  agencies to meet the challenges of conducting Federal audits of State claims, bound by a wide
                  variety of State policies.

                  Our response to each of the OIG recommendations tollows.




OEI-05-10-00210                    Early Assessment of Audit Medicaid Integrity Contractors                                                 22
OEI-05-10-00210   Early Assessment of Audit Medicaid Integrity Contractors   23
OEI-05-10-00210   Early Assessment of Audit Medicaid Integrity Contractors   24
              ACKNOWLEDGMENTS
             This report was prepared under the direction of Ann Maxwell, Regional
             Inspector General for Evaluation and Inspections in the Chicago regional
             office; Thomas F. Komaniecki, Deputy Regional Inspector General; and
             Laura Kordish, Deputy Regional Inspector General.
             Mark Stiglitz and Benjamin Dieterich served as project leaders for this
             study and Cassandra Yarbrough served as analyst. Other principal Office
             of Evaluation and Inspections staff from the Chicago regional office who
             contributed to the report include Leigh Pylman; other central office staff
             who contributed include Kevin Manley and Andrew VanLandingham.




OEI-05-10-00210      Early Assessment of Audit Medicaid Integrity Contractors         25
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
